<html>
<title> - RETREAT OR REVIVAL: A STATUS REPORT ON DEMOCRACY IN ASIA</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





 
        RETREAT OR REVIVAL: A STATUS REPORT ON DEMOCRACY IN ASIA

=======================================================================


                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 11, 2015

                               __________

                           Serial No. 114-71

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
        
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                     ______
                                 
                          U.S. GOVERNMENT PUBLISHING OFFICE
94-942PDF                         WASHINGTON : 2015       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001    
     
     
     
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York
    

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                     MATT SALMON, Arizona Chairman
DANA ROHRABACHER, California         BRAD SHERMAN, California
STEVE CHABOT, Ohio                   AMI BERA, California
TOM MARINO, Pennsylvania             TULSI GABBARD, Hawaii
JEFF DUNCAN, South Carolina          ALAN S. LOWENTHAL, California
MO BROOKS, Alabama                   GERALD E. CONNOLLY, Virginia
SCOTT PERRY, Pennsylvania            GRACE MENG, New York
SCOTT DesJARLAIS, Tennessee





                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Tom Malinowski, Assistant Secretary, Bureau of 
  Democracy, Human Rights, and Labor, U.S. Department of State...     3
The Honorable Scot Marciel, Principal Deputy Assistant Secretary, 
  Bureau of East Asian and Pacific Affairs, U.S. Department of 
  State..........................................................     5
The Honorable Jonathan Stivers, Assistant Administrator, Bureau 
  for Asia, U.S. Agency for International Development............     6
Ms. Kelley Currie, senior fellow, Project 2049 Institute.........    35
Mr. Murray Hiebert, deputy director and senior fellow, Sumitro 
  Chair for Southeast Asia Studies, Center for Strategic and 
  International Studies..........................................    44
Mr. Peter M. Manikas, senior associate and regional director for 
  Asia programs, The National Democratic Institute...............    52
Sophie Richardson, Ph.D., China director, Human Rights Watch.....    59

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Tom Malinowski, the Honorable Scot Marciel, and the 
  Honorable Jonathan Stivers: Prepared joint statement...........     9
Ms. Kelley Currie: Prepared statement............................    38
Mr. Murray Hiebert: Prepared statement...........................    46
Mr. Peter M. Manikas: Prepared statement.........................    54
Sophie Richardson, Ph.D.: Prepared statement.....................    60

                                APPENDIX

Hearing notice...................................................    70
Hearing minutes..................................................    71
Questions submitted for the record to Panel I witnesses by the 
  Honorable Matt Salmon, a Representative in Congress from the 
  State of Arizona, and chairman, Subcommittee on Asia and the 
  Pacific........................................................    72
  Written responses from the Honorable Jonathan Stivers..........    74
Questions submitted for the record to Panel II witnesses by the 
  Honorable Matt Salmon..........................................    82
  Written responses from Mr. Murray Hiebert......................    85
  Written responses from Mr. Peter M. Manikas....................    89
The Honorable Alan S. Lowenthal, a Representative in Congress 
  from the State of California: Prepared statement...............    92
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    96


        RETREAT OR REVIVAL: A STATUS REPORT ON DEMOCRACY IN ASIA

                              ----------                              


                        THURSDAY, JUNE 11, 2015

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 3:10 p.m., in 
room 2171, Rayburn House Office Building, Hon. Matt Salmon 
(chairman of the subcommittee) presiding.
    Mr. Salmon. The subcommittee will come to order. Given the 
timing of votes this afternoon, we are expected to go back in 
for votes again pretty soon, I am going to keep my remarks very 
short and submit my entire statement for the record.
    Supporting human rights and democracy has long been a 
central component of U.S. foreign policy. Promotion of 
democratic values facilitates security, stability, and economic 
prosperity throughout Asia and the world. This year the Asia-
Pacific region is entering a critical period for democracy with 
a number of elections, government transitions, and internal 
developments planned in numerous countries.
    As the United States continually refines its efforts to 
ensure peaceful, transparent transitions of power and adherence 
to international law and norms, we must also ensure that our 
efforts are practical and leave meaningful results among Asian 
democracies, that our efforts leave them very robust. Our 
hearing will provide oversight on our Government's activities 
to support democracy abroad and ensure that while our focus is 
on military and economic rebalance, that we are not going to 
overlook the importance of democracy and human rights.
    Today we are going to pay special attention to Hong Kong, 
Burma, Thailand, and Cambodia, and the rest of my remarks I am 
just going to submit for the record. We have got such a short 
amount of time, I really want to hear from the witnesses.
    Mr. Sherman, I am going to yield to you.
    Mr. Sherman. Thank you. Thank you for holding these 
hearings.
    For the most part, our Government programs aren't designed 
to focus on democracy in China, but the thing that I think will 
be even more important to bringing democracy to China is if we 
are able to expose to the Chinese people the incredible levels 
of corruption in their own regime. We have the capacity to 
ferret out proof of their top government officials and mid-
level government officials with enormous assets both in and out 
of China. And I don't think there is much that would do more to 
bring democracy to China than exposing this level of 
corruption.
    We are in a stronger position to push for democracy in 
other countries. In Burma, we face two issues: One, getting the 
military or military-flavored regime to agree to democracy; 
and, second, trying to get both the democracy advocates that we 
have sheltered and supported for so long, and the military 
regime to understand the importance of minority rights. I am 
especially disappointed that Aung Suu Kyi and others who we 
have supported so fervently have not spoken out and acted to 
protect the rights and the physical existence of the Rohingya.
    In Thailand, we need to support democracy even if there 
are, I don't know, more yellow shirts than red shirts or more 
red shirts than yellow shirts and even if the more numerous 
shirts may represent a policy that we regard as a little too 
redistributionist or adopting economic policies inconsistent 
with majority economic thought here in the United States.
    I look forward to learning what we can do to bring both 
development and democracy to Cambodia. And as to Hong Kong, the 
Chinese Government is obviously doing less than promised, and 
we need to expose and pressure that. At the same time, the 
people of Hong Kong do enjoy something closer to democracy than 
the rest of the PRC. And I think that the example of Hong Kong 
is one that the rest of China may choose to emulate.
    I, like the chairman, want to keep my opening remarks 
short, and this is the first time I have concluded them in only 
3 minutes.
    I yield back.
    Mr. Salmon. Some world records. Maybe with that miracle, 
maybe the Republicans might actually win a baseball game 
tonight, I doubt it, but--just kidding. We have a wonderful 
panel today. I would like to introduce Tom Malinowski, the 
Assistant Secretary of the State Department's Bureau of 
Democracy, Human Rights, and Labor.
    And, Tom, we really appreciate the opportunity while we 
were over in Asia to meet with you and get some of your 
wonderful thoughts. It really helped our trip very much as we 
interfaced with some of the leaders over there to get your 
insights, and I just have full support for everything you are 
trying to accomplish.
    Scot Marciel is the Principal Deputy Assistant Secretary of 
the Bureau of East Asia and Pacific Affairs at the Department 
of State.
    And a frequent flier here at the committee, Jonathan 
Stivers, USAID's Assistant Administrator of the Asia Bureau.
    And we are so grateful for the time this decorated panel 
has made for us today.
    And, without objection, the witness' full prepared 
statement will be made part of the record. Members will have 5 
calendar days to submit statements, questions, and extraneous 
materials for the record.
    Mr. Malinowski, I will start with you.

STATEMENT OF THE HONORABLE TOM MALINOWSKI, ASSISTANT SECRETARY, 
 BUREAU OF DEMOCRACY, HUMAN RIGHTS, AND LABOR, U.S. DEPARTMENT 
                            OF STATE

    Mr. Malinowski. Thank you so much Chairman Salmon. Very 
good to see you again.
    And, Mr. Sherman, who is also a member of the DRL human 
rights family, thank you so much for inviting us.
    Let me start with some general impressions. Promoting human 
rights and democracy in Asia is something we do because it is 
the right thing to do. It also advances our strategic 
interests. It helps to build more stable societies. It advances 
our economic goals in a number of ways.
    Perhaps most important from my point of view it aligns the 
United States with the aspirations of everyday people across 
this region with--it aligns us with the values that they 
admire. We sometimes get into arguments with governments on 
these issues, but we are fundamentally in agreement with the 
people of China, with the people of Vietnam, with the people of 
Burma about the basic human aspiration to be treated with 
dignity and fairness and with full respect for rights. And that 
agreement is a strategic advantage for the United States we 
need to preserve.
    By the same token, the flip side of that is that our 
strategic presence in Asia, our alliances, our trade 
agreements, our ability to provide security and reassurance 
also enables us to promote democracy and human rights more 
effectively. To advance our values we need to be the great 
power that is shaping the agenda, and that our allies look to 
as their most reliable partner because there are alternative 
visions out there. There are alternative agenda setters out 
there. So, to be effective, we have to be present and 
principled at the same time.
    With that in mind, you have asked us to address a few 
specific situations. I am going to say a few words about Burma. 
I am going to throw in a little bit about Vietnam where you and 
I met recently, and my colleague, Deputy Assistant Secretary 
Marciel, will cover some of the other countries that you asked 
us to focus on.
    So, first, Burma, which is, it is first of all a country 
that has come a long way from the absolute military 
dictatorship that it was just a few years ago but is not yet 
where we need it and want it to be. It is undergoing an 
evolution, not a revolution. Everything is being negotiated. It 
is still operating under the old military constitution. There 
is still armed conflict, religious tension, the tragic 
situation of the Rohingya minority.
    Our policy has been to support a democratic transition but 
with realism about how far Burma has to go and caution about 
not moving too fast ourselves. So we have eased sanctions. We 
haven't fully lifted them. We have encouraged U.S. investment 
but not with military industries. We have welcomed the progress 
we have seen, but we have also continued to speak out about the 
problems.
    This is a very important year. There will be elections in 
Burma later this year, the first nationwide competitive 
elections there in a very long time. Those elections will have 
inherent flaws because of the system in place. They do, if they 
reflect credibly the will of Burmese people, they do offer a 
chance to take a step forward.
    If the democratic forces do well, for example, they will 
form the next government. They will select the next President. 
They will have the leverage to press for the next stage of 
reform. So we are going to support the elections as best as we 
can. But we will be looking not just at the credibility of that 
process but at the credibility of the democratic transition 
that we hope will follow, including, we hope, changes to the 
constitution that empower civilians over the military and that 
give Burmese people the right to choose the President they 
want.
    And we are also going to continue to press to right the 
wrongs being committed against the Rohingya minority, which 
President Obama, when he was in Rangoon recently, called 
Burma's most urgent matter.
    Now, let me say also just a few words about Vietnam, and I 
want to talk about this in the context of the choice that 
Members are going to have to make very shortly on TPA and 
eventually on TPP because that choice is going to have a huge 
impact on what we are going to do going forward.
    And I recognize that it is not an easy choice for many 
Members, especially those who are concerned about human rights 
and labor rights in Vietnam.
    We see exactly what you see in that country. It is still a 
one-party state. It is still a country in which people are 
persecuted for political opinions. And it is, again, a country 
that is not where we yet want it or need it to be.
    But going back to the point I made at the outset, we have 
to be present, and we have to be principled. I think the TPP 
meets both of those tests. First of all, it is an example of 
strategic presence of the United States trying to play the 
leading role in shaping the norms and institutions of Asia for 
a generation to come. If we cede that role to others, that is 
not going to be good for the cause of human rights and 
democracy.
    Second of all, it is principled because built into TPP are 
a set of requirements and expectations unlike in past trade 
agreements. Those requirements and expectations feed into a 
debate that is underway in Vietnam already between those who 
want to open up the society and those who want to keep it 
closed. And those who want to keep it to make it more open are 
using the prospect of membership in TPP as their number one 
argument for moving forward. And under the spotlight of that 
debate, there has been progress, more releases, vastly fewer 
convictions for political offenses, ratification of human 
rights treaties and the beginning of comprehensive legal 
reform. And most important, a requirement built into the treaty 
that Vietnam allow for the very first time freedom of 
association, the creation of independent trade unions, breaking 
the Communist Party's monopoly on trade union organizing, which 
would be a huge deal if we can get it. And those changes will 
have to be made in Vietnamese law before they can enjoy the 
benefits of TPP.
    So is this enough? No, it is not, but it will be 
significant. It will be necessary in terms of what we are 
trying to achieve. And, without the prospect of TPP, it would 
not be happening. And TPA, which is what you all are being 
asked to vote for in coming days, is what keeps that prospect 
open and thus gives us the leverage to keep pressing for more.
    I have focused on this as much as any other human rights 
issue in the world. And I can tell you that this is the entree. 
This is the reason why the Vietnamese Government is willing to 
listen to us on these issues. So I ask you to consider this, 
not as a leap of faith, but as an exercise in leverage in 
trying to achieve the kind of progress that we have been hoping 
for in Vietnam for a long time, but only now I think have a 
chance to achieve.
    With that, I will turn the rest over to my colleague, Mr. 
Marciel.
    Mr. Salmon. Mr. Marciel.

   STATEMENT OF THE HONORABLE SCOT MARCIEL, PRINCIPAL DEPUTY 
ASSISTANT SECRETARY, BUREAU OF EAST ASIAN AND PACIFIC AFFAIRS, 
                    U.S. DEPARTMENT OF STATE

    Mr. Marciel. Thank you, Chairman Salmon, Ranking Member 
Sherman, and members of the committee. It is a privilege to 
testify before you today. Promoting democracy and human rights 
is not something we do on the margins. It is an integral part 
of our daily diplomacy in Asia, particularly, of course, in 
countries that either are not democracies, or where democracy 
is fragile. My generation joining the Foreign Service and 
heading to Asia three decades ago, went to a region where 
democracy were few and, in the case of Southeast Asia, were 
nonexistent. Now, a majority of Southeast Asians live in 
democracies in places like the Philippines, Indonesia and 
Timor-Leste. South Korea, Taiwan, and Mongolia have 
democratized as well, and others have made progress along the 
democratic path.
    In all of these places, the people of those nations deserve 
the credit. They are the ones who made democracy happen. But 
the United States strongly supported all of these democratic 
transitions, and we are not stopping. I will talk about what we 
are doing in three very different places, Cambodia, Thailand, 
and Hong Kong.
    But, first, if I could, I would add a few words to 
Assistant Secretary Malinowski's review of Burma. And I just 
want to stress there that our engagement in Burma and with 
Burma is all about their efforts to achieve a successful 
democratic transition. That has been and remains the focus of 
our work at all levels.
    On Cambodia, after the 2013 parliamentary election, we, and 
particularly our Embassy in Phnom Penh, were instrumental in 
helping bring the government and opposition together in direct 
dialogue to resolve a year-long standoff. There is still much 
work to do, but now the two sides sit in Parliament together. 
And we are supporting the Cambodian people as they work to 
build on these gains. We are supporting civil society. We are 
connecting directly with Cambodia's next generation of leaders. 
And we stand with the Cambodians who are pushing for a voice as 
new laws are drafted. This sends a reminder that democracy 
isn't only about free elections. It is also about citizens' 
ability to hold their governments accountable.
    Next, Thailand, a long-time friend and treaty ally. We have 
stood for democracy there through a decade of political 
turmoil, and our message to the government since the coup just 
over a year ago has been clear. We are eager to see our 
bilateral relationship restored to its fullest potential, but 
this can happen only when democracy is restored.
    Until then, we will hold back certain assistance that has 
been suspended since the coup. But we will continue, however, 
to operate closely with the Thai on regional and global issues, 
that serve U.S. interests such as health, law enforcement, 
trafficking, climate change, regional security. In our 
interactions with the Thai, we continually stress that it is 
important for Thailand to have an inclusive political process 
and to fully restore civil liberties. This is essential to the 
open debate the country needs to have about its political 
future.
    My third example is Hong Kong, where we have consistently 
voiced our core belief that an open society that respects the 
rights of its citizens and fundamental freedoms is essential to 
Hong Kong's continued stability and prosperity. We expect the 
legislative council to vote this month on an electoral reform 
package. While Hong Kong has never selected a chief executive 
through universal suffrage, we continue to voice our 
longstanding position that the legitimacy of the chief 
executive and of Hong Kong's overall governance can be enhanced 
through a competitive election that features a meaningful 
choice of candidates who represent the will of the voters.
    Our position is a matter of principle, so we don't take a 
position on any particular draft law. We leave that question to 
Hong Kong's legislators in consultation with the people of Hong 
Kong. Irrespective of the outcome of any single legislative 
vote, we will keep supporting Hong Kong's continued high degree 
of autonomy, under ``one country, two systems'' and the basic 
law.
    We admire all that so many people in Asia have done to 
promote democracy and good governance. Their work is never 
complete, but in our everyday diplomacy, we will continue to do 
all we can as a friend and as a reliable partner to support 
efforts to build and strengthen democracy.
    Finally, let me emphasize that trade and investment, 
especially TPP, are important, are key to supporting a U.S. 
economy and to our efforts to promote democracy in the region. 
Thank you and I look forward to your questions.
    Mr. Salmon. Thank you. Mr. Stivers.

    STATEMENT OF THE HONORABLE JONATHAN STIVERS, ASSISTANT 
 ADMINISTRATOR, BUREAU FOR ASIA, U.S. AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT

    Mr. Stivers. Chairman Salmon, Ranking Member Sherman, 
distinguished members of the subcommittee, and Mr. Crowley, 
thank you for the opportunity to testify today on the role of 
USAID in strengthening democracy, human rights, and governance 
in Asia. The vital importance of these areas has always been 
close to my heart and the forefront of my nearly two decades of 
work as a staffer in the House of Representatives.
    The House Foreign Affairs Committee has long been at the 
forefront on democracy and human rights issues, and some of the 
strongest voices on human rights in U.S. history have done 
their best work on this panel.
    Mr. Chairman, this hearing is in furtherance of that 
tradition, so thank you for your leadership in holding this 
hearing.
    Dr. Martin Luther King once said that ``The arc of the 
moral universe is long, but it bends toward justice.'' This is 
certainly true in Southeast Asia which has made significant 
progress over the last 30 years. There is a unique situation in 
each country of the region to either preserve, consolidate, or 
build democratic institutions.
    The United States stands as a partner in helping the people 
in Asia live in freedom and prosperity, including in countries 
with significant democratic challenges such as Burma and 
Cambodia.
    In the fight to alleviate extreme poverty, it is essential 
to effectively address the underlying structural problems with 
governance that hold back many developing countries from 
realizing their potential. The solutions to challenges will 
ultimately come from the people of the region themselves, and 
our best chance in promoting democratic change is to empower 
the reformers in these countries by helping them build 
resilient institutions that are transparent and accountable to 
the people.
    The promotion of democracy, human rights, and good 
governance is front and center in our development assistance to 
the region. And efforts not necessarily branded as democracy 
promotion, help advance that goal as we build systems and 
capacity to address overwhelming development challenges, 
including support for health and food-security sectors.
    Our development assistance engages directly with the people 
and helps give them a voice in determining their own 
livelihoods and future. For the purposes of this hearing, I 
will focus my remarks on the countries of Burma and Cambodia.
    In Burma, this is a pivotal year. Closely calibrated with 
our diplomatic efforts, our assistance is intended to 
strengthen institutions of democracy. USAID is helping to 
prepare for the November elections by building the capacity of 
the election commission; training domestic election observers; 
supporting voter registration and education; and strengthening 
the capacity of political parties.
    USAID continues to provide humanitarian assistance to 
vulnerable communities, including significant assistance for 
the Rohingya population, refugees, and displaced people along 
the Thailand-Burma border and other conflict areas of Burma. 
Over the past 2 years the U.S. Government has provided more 
than $109 million in humanitarian assistance to vulnerable 
people in Burma and the region. And we continue to provide 
lifesaving humanitarian assistance to internally displaced 
persons, refugees, asylum seekers in the areas of health, 
nutrition, water, sanitization, and hygiene.
    An emphasis on civil society is prevalent through all of 
our work, from media freedoms to land policy to health and 
agriculture. And we are supporting organizations that are 
holding the government accountable to continued reform; 
advocating for local needs and priorities; and resisting 
discrimination and violence.
    To date, USAID has supported over 300 vocal civil society 
organizations who are empowering ordinary citizens to bring 
change to their country.
    In Cambodia, promoting democratic governance and human 
rights continues to be our highest priority. U.S. assistance to 
human rights NGOs have strengthened their skills necessary to 
advocate effectively for change. While not fully respected by 
the Cambodian Government, Cambodian civil society has grown in 
strength and inclusiveness. Since the 1990s, we have supported 
civil society, and we continue to prioritize assistance to this 
sector. Cambodian civil society, with USAID support, has 
pressed for action on key issues, such as support for human 
rights, by providing legal representation, trial monitoring, 
and advocacy support to over 1,000 jailed activists.
    Our longstanding support for anti-trafficking is paying 
dividends with a new report finding significant decreases in 
trafficking of underaged girls. The reduction was achieved in 
large part by civil societies' sustained efforts.
    In part, due to U.S. support, garment workers negotiated a 
28-percent increase in minimum wage that was approved last 
year.
    Community mobilization and legal support resulted in the 
government returning land to more than 700 families in Siem 
Reap Province, providing them with land tenure security and 
improved livelihood options. And advocacy resulted in a pardon 
and release of 10 female land activists recently who had been 
imprisoned for protesting their community from being evicted 
due to real estate development projects.
    In conclusion, Mr. Chairman, democracy, human rights, and 
good governance are not only central to the Asia rebalance 
policy but to our development approach in Asia. I appreciate 
the opportunity to testify today. I look forward to hearing 
your thoughts and any questions.
    [The prepared joint statement of Mr. Malinowski, Mr. 
Marciel, and Mr. Stivers follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Salmon. Thank you. I have a question for anybody on the 
panel that feels adequately prepared to answer the question: An 
Irrawaddy news article from 2014 highlighted that U.N. 
agencies, USAID, and some of AID's contractors were spending 
millions of dollars a year on rent payments to members of 
Burma's military elite, their families, and their cronies. And 
the case has highlighted the USAID contractor Development 
Alternatives International, DAI, reportedly renting a home from 
the family of Khin Nyunt, the former head of Burma's military 
and intelligence, and UNICEF was spending approximately $87,000 
a month to rent a mansion owned by another former junta leader 
and minister in the current government.
    These rents amounted to direct transfers of U.S. assistance 
funds into the coffers of people who thwarted democracy, abused 
human rights in Burma for decades. What are the steps that 
USAID and its contractors have taken to address the rent 
problem as well as issues with individuals who are on the SDN 
list that the USG inadvertently paid money to during Secretary 
Kerry's visit to ASEAN Summit in 2014? And please also share 
with the committee the current monthly rate USAID is paying for 
its own rented space outside the Embassy compound, including 
the resident of the chief of mission, and who the property 
owners are. We would also appreciate if you could provide 
similar information for the 10 largest contractors USAID is 
funding in Burma this fiscal year.
    And Mr. Stivers I know you may not be prepared to throw 
down on all of that right now, but if you want to answer in 
writing afterwards, then that is fine too. But if you have any 
statements or anybody on the panel wants to address that, I 
would love to hear what your thoughts are.
    Mr. Stivers. Sure, thank you, Mr. Chairman. In terms of 
that situation from 2014, I remember it back then. It is my 
understanding that that situation was resolved, but let me 
check on that and get you the facts on that. But I agree with 
you that it is absolutely essential that all of our contractors 
and all of our contracts have the highest standards in terms of 
where they are getting rent from and the buildings that they 
are occupying. And I can assure you that in our contracting, we 
take a very close look and make that a high priority. But I 
will get you more details.
    Mr. Salmon. And Mr. Stivers, if you could look at, you 
know, just the question that I asked. We would be happy to give 
that to you in writing, too. Just get us an answer back. I 
would really appreciate it. It would be very helpful.
    [The information referred to appears in the appendix.]
    Mr. Salmon. One other question and then, in the interest of 
time, I want everybody to ask their first question. But one 
other question is regarding China. It frames issues regarding 
political developments in the area where it considers itself 
sovereign. Whether elections in Hong Kong, the DPP's projected 
win next year in Taiwan, and the protests for rights in 
Xinjiang and Tibet, and in terms of its core interests.
    For the United States, each of these issues reflects our 
own core interests in the advancement of democracy, civil 
society, and human rights across the People's Republican of 
China, particularly in Hong Kong, where its history and special 
``one country, two systems'' status has allowed for a degree of 
freedom, liberalism, and pluralism to take root and flourish.
    What are the administration's plans to express solidarity 
with Hong Kong's democracy activists as part of a principled 
approach to summitry with China this year? Can Congress and the 
American people expect a public expression of support that will 
be heard by democracy activists in Hong Kong, China, and 
elsewhere?
    Mr. Marciel, you made some great opening comments about the 
whole universal suffrage issue in Hong Kong. We were there. We 
met with several of the activists. And I am very, very 
concerned that the freedom fighters over there are feeling a 
little bit lonely. And I just want to know what we can do to 
further embolden democracy there?
    Mr. Marciel. Thank you, Mr. Chairman.
    I think, broadly speaking, in our relations with China and 
our very regular conversations with China, human rights and 
democracy issues come up. We raise them often, certainly, about 
human rights concerns in China itself to begin with.
    In terms of Hong Kong, as I said, we have been strong 
supporters of the ``one country, two systems'' and the basic 
law, as you know. We have said that Beijing's decision last 
August in terms of the way of nominating potential candidates 
for the chief executive office, we said could have gone further 
in providing Hong Kong's 5 million potential voters a 
meaningful choice of candidates. So we have said that publicly. 
And we have said that the legitimacy of the chief executive 
will be greatly enhanced if the chief executive is elected by 
universal suffrage in accordance with the basic law, and the 
aspirations of the Hong Kong people, and the election provides 
for a genuine choice of candidates. So I won't try to predict 
exactly when we will say things, but that has been our 
consistent position privately and publicly, and I expect we 
will continue to express it.
    Mr. Salmon. Well, I, for one, am really pleased that you 
said it in your opening statement, and I am pleased that you 
have reiterated that in relationship to my question. And it is 
not just my question for you. I think we are all kind of 
grappling as Members of Congress, too, walking that fine line 
of not, you know, we certainly don't want to upset the apple 
cart with our one-country policy that we would adhere to, 
really, for decades, and decades, and decades.
    But by the same token, I think that there were certain 
representations that were made in 1997 when the transition 
occurred that haven't completely been realized. And I met with 
stalwarts when I was over there like Anson Chan and Martin Lee. 
And, you know, they believed that certain things were going to 
happen and they are still waiting. And I think that any voice 
that we can give collectively as a Congress, as the 
administration, to keep that idea alive as far as universal 
suffrage and selection of their chief executive, I think that 
that is really, really important to them. And so thank you very 
much for that.
    And I am going to yield to Mr. Sherman.
    Mr. Sherman. Thank you, Mr. Chairman.
    I didn't think we would be talking about fast track here, 
but I do need to make a few comments.
    Mr. Marciel, when you say this will strengthen the American 
economy, I think you are a little outside of your expertise. 
The trade policy of the United States the last 30 years has led 
us from being the greatest creditor nation of the history of 
the world, the greatest debtor Nation in the history of the 
world. We have lost well more than 5 million jobs. We have 
eviscerated the middle class, and now we are being asked to 
double down on what is a trade policy so bad that it is able to 
stagnate wages in the greatest country, to the greatest workers 
in the world; a trade policy that is able to do all that to 
what is otherwise the greatest economy and the greatest workers 
in the world.
    As to Vietnam, obviously, they are going to show the 
greatest, nicest human rights face right up until the ink is 
dry. Labor leaders, I am sure if this deal goes forward will 
not be arrested for being labor leaders. They will be arrested 
because drugs are planted on them. They will be arrested, if 
you really want to scandalize the world, because they will 
plant child pornography on them. And Vietnam, certainly, does 
not have the judicial independence to defend its rights regime 
sufficient to expose a well-designed regime conspiracy to jail 
a labor leader. And I think the labor leaders there will surely 
understand that.
    As for the United States being able to do anything right 
now, you can do as much as you will ever been able to do 
because we are in negotiations. Your successor will soon 
realize that as powerful as DRL is, the Nike lobbyists are far 
more powerful. And once profits from Vietnam hit $10 billion, 
$20 billion, $30 billion, your successors will find it more 
convenient to talk about Thailand and Burma.
    I saw this happen with Iran where administration after 
administration refused to apply the Iran Sanctions Act because 
of commercial interests right up until the time when they were 
close to a nuclear weapon. I will agree with you, if Vietnam 
develops a nuclear weapon, then we may be able to generate more 
interest.
    But let's focus on China. What undermines totalitarian 
regimes often is the sunlight of information. Mr. Marciel, is 
it our policy or should it be to acquire information relevant 
to Chinese citizens and to publish it, whether that be about 
the real levels of pollution in Chinese cities or the real 
level of foreign assets owned by Chinese leaders?
    Mr. Marciel. Thank you, Congressman.
    I guess I would start by saying that, you know, in China, 
as elsewhere, we are strong believers in and advocates for 
freedom of expression, freedom of information, transparency.
    Mr. Sherman. Well, I am asking you, would we do more and 
that is use the CIA to expose--to gather the information that 
needs to be exposed? I am sure that we are going to advocate 
for the Chinese journalists. The Chinese journalist doesn't 
have the CIA's investigative power. The Chinese, arguably, just 
hack us pretty badly. Certainly, the CIA could publish a report 
a week about the Swiss chateaus owned by this or that comrade.
    Mr. Malinowski, do you have a comment, Deputy Assistant 
Secretary?
    Mr. Malinowski. I would point to a different agency of our 
Government because I am not sure in----
    Mr. Sherman. When I say ``the CIA,'' I mean all of our 
information-gathering capacities.
    Mr. Malinowski. Yeah, I am a very big believer in the 
general principle that you just outlined, that the greatest 
weakness of authoritarian states writ large around the world is 
corruption. That is the thing that units the most people in 
demanding the rule of law, demanding democratic government, 
ordinary people, as we have seen everywhere.
    And we do have tools in our Government that we--that are in 
some cases not as well developed as they should be, but that 
are becoming better developed to try and fight corruption 
throughout the world. I am not just going to make this about--
--
    Mr. Sherman. I am not saying we should fight it. China is a 
strategic adversary. We should be using it. The more corruption 
in China, the less likely it is that China surpasses us or 
intimidates us.
    Mr. Malinowski. And where I was heading with this is that 
we have, for example, anti-kleptocracy unit in our Justice 
Department, which I would think could use more resources to do 
this kind of work all over the world, whether it is FIFA or 
whether it is Russia or whether it is China or the Middle East. 
It is apolitical, and so no one can accuse it of serving a 
particular foreign policy interest of the day, and that is 
important because it is more credible. But it is very, very 
powerful.
    Mr. Sherman. I want to get to one other question, but if 
you think that the average Chinese citizen will regard one 
agency of the U.S. Government as being more apolitical than 
another, you give them and us an awful lot more credit than I 
think.
    And the democratic activists in what the State Department 
still calls Burma, we protected them. We used sanctions. We 
were effective. They now share some degree of power. What have 
we done to call in a chit or two, and say that we need to see 
those who advocate for democracy and majority rule also 
advocate minority rights in the area of the Rohingya?
    Mr. Malinowski. We, all of us at this table, and many 
others in the administration, have had that conversation with 
them repeatedly, from the level of Aung San Suu Kyi--I have 
spoken to her personally about this, as have others, including 
President Obama--all the way down to the rank and file 
activists.
    Some of them have done the right thing. And my bureau, 
among the programs that we support in Burma are programs that 
work with democratic activists who are trying to promote 
tolerance in that society, including with respect to the Muslim 
minority and the Rohingya minority. You have seen just what we 
are up against in terms of the deep-seated social prejudice and 
the discrimination that flows from it. It is a much harder 
problem to deal with than if we just had an evil government 
that was repressing people.
    But it is, as President Obama said, in many ways the most 
urgent problem because if I can think of anything that could 
derail this entire democratic transition over time, it is the 
ability of irresponsible forces in that country to divide 
people on the basis of religion and race. So we are absolutely 
seized with it. I will not claim to you that we have solved the 
problem because, obviously, we have not. But it is our, I would 
say, top priority.
    Mr. Sherman. Thank you.
    Mr. Salmon. Thank you, Ms. Meng.
    Ms. Meng. Thank you, Mr. Chairman, Mr. Ranking Member.
    Welcome to all of our witnesses who are testifying here 
today.
    Assistant Administrator Stivers, thank you once again. I am 
losing track of how many times you have come to testify before 
us.
    Mr. Stivers. Four.
    Ms. Meng. I applaud USAID for making great strides and 
prioritizing and focusing on gender equality and women's 
economic empowerment. As I listened to you discuss USAID's 
democracy work, while democracy, gender equality, and women's 
economic empowerment go hand in hand, but USAID-funded mission 
programs targeting democracy and human rights in Asia have 
dramatically decreased over the past several years with funds 
instead directed to Presidential initiatives.
    While we understand that some democracy funding may be 
attached to the initiatives, those programs don't deal directly 
with the democracy and human challenges that many countries now 
face. Does USAID have plans to increase human and labor rights 
funding, and democracy support in the region and how is USAID 
integrating these democracy priorities with your gender 
equality and women's economic empowerment agenda?
    Mr. Stivers. Thank you for that question. The Fiscal Year 
2016 budget request includes increases in democracy and 
governance funding for almost every country in East Asia. And 
the requests over the last few years have done the same.
    It is not a secret that the overall cuts to foreign 
assistance in recent years have had an impact on overall 
discretionary funding, which is primarily democracy and 
governance funding, and economic growth funding. And so there 
are a number of issues in the final budget that is concluded by 
the administration and both Houses of Congress that have 
affected our discretionary spending and our flexibility to 
provide the democratic and governance funding that does so 
much, especially in support of civil society.
    In Burma and Cambodia, for example, we are doing so much to 
support civil society including promoting gender empowerment 
and fighting against trafficking. We are supporting many 
organizations that work on those sorts of issues. But the 
funding is an issue when we consider the budget.
    Ms. Meng. You mentioned Burma. There are many, many 
concerns. There is a sense that the situation is getting out of 
hand. I believe that the State Department has called for a free 
and fair elections in Burma this year. My understanding is that 
25 percent of the seats in the future Parliament are explicitly 
reserved for members of the military, and those seats are 
filled by military appointments. Even more concerning is that 
the military can effectively veto any major changes because 
those changes require 75 percent of parliamentary majority. How 
do you reconcile this setup with the call for free and fair 
elections and have you raised this with Burmese Government?
    Mr. Malinowski. Sure. As I mentioned in my opening 
statements, there are inherent flaws in this--in these 
elections, inherent flaws in the system. You mentioned a couple 
of them, the 25 percent allocation to the military, so it is an 
election for 75 percent of the seats, not for 100 percent. I 
would add that the Parliament that will be selected in these 
elections will not be fully empowered vis-a-vis the military 
because the military still has the ability to appoint some of 
the most important ministers in the country, interior, defense, 
so they control the muscle.
    And all of this is--and of course, the problem that Aung 
San Suu Kyi, by virtue of her foreign birth is barred--I am 
sorry, the foreign citizenship of her sons, is barred from 
seeking the presidency, which is also a provision in the 
constitution.
    So these are inherent flaws, and they are not likely to be 
resolved before the election takes place. That said, it is 
possible, not guaranteed, but it is possible that the elections 
will allow the people of Burma to express their will and to 
elect candidates of their choice in a very competitive process. 
The democratic forces in the country, including Aung San Suu 
Kyi's party, are all in. They are going to compete in these 
elections. If they do well, if they end up with a majority in 
the Parliament, which they can do if they win two-thirds of the 
seats--that is how the math works, and they are capable of 
doing that--then they get to pick the next President, which 
will not be Aung San Suu Kyi under the system, but they will 
get to choose who it is. They will form the next government.
    And you can see in that scenario that they will have a lot 
of political leverage to be able to negotiate changes to that 
constitution to fix the problems that we have just been 
discussing.
    So that is the hopeful scenario. It is not by any means 
guaranteed. But that is what we have been encouraging, not just 
credible elections but a credible, democratic transition 
following the elections to fix those structural problems in the 
system.
    Ms. Meng. Thank you.
    Mr. Salmon. Mr. Lowenthal.
    Mr. Lowenthal. Thank you.
    Thank you, Mr. Chair, and Mr. Malinowski, I want to thank 
you personally for your tireless work on human rights, 
especially in Vietnam. I generally appreciate the open dialogue 
that we have had, and the work that you have done, and I went 
along with the chair, visiting Vietnam, and getting a chance to 
see you.
    I want to talk about something that you mentioned in your 
testimony here that I think has--and, you know, the thing that 
we will be actually looking at and voting on very soon. And 
that is the--although you talk about the TPP, right now, we, as 
you know, we will be voting on the TPA, the promotion 
authority. But you say in your submitted testimony that the TPP 
agreement will include a requirement that Vietnam guarantee 
freedom of association by allowing workers to form genuinely 
independent trade unions.
    Can you expand to us on what that cause really will look 
like, and how are we going to be able, the United States and 
others, to hold Vietnam accountable? And has there been--has 
Vietnam taken any steps today, before the TPP goes into effect, 
to actually develop independent trade, or is this something 
that they are saying they will do in the future?
    Mr. Malinowski. Thank you, Congressman.
    Those are very, very important questions that we have been.
    Mr. Lowenthal. That is right, those are the critical 
questions for me in terms of labor issues.
    Mr. Malinowski. In terms of where they are now, let me 
start there.
    Mr. Lowenthal. Yes.
    Mr. Malinowski. Vietnam, as you know, does not have 
legally--does not legally recognize independent trade unions. 
There is one Communist Party affiliated trade union that is 
supposed to represent all of the workers of the country and 
that, you know, puts on shows, and helps with vacations and 
doesn't really do very much, although they are now beginning to 
feel a little bit of pressure.
    Interestingly, in the last few years, there has been a 
growth of unrecognized.
    Mr. Lowenthal. That is right, labor strikes.
    Mr. Malinowski. There have been many strikes which have 
been organized by, you know, what we would call a local trade 
union. It is just not recognized as such. And then in a number 
of recent cases, the government has reacted appropriately. They 
have negotiated with the workers. They have in some cases given 
into their demands. And I think this is partly because of the 
spotlight of TPP, but I think it is also because there are deep 
changes within the Vietnamese society that the government is 
trying to understand and keep up with.
    So there is free associating going on in Vietnam, but there 
is not freedom of association in the sense that what people are 
doing is not yet guaranteed, recognized, protected within the 
law.
    So what TPP requires, not just of Vietnam but all of the 
members, is compliance with the internationally recognized 
labor right of freedom of association. In the specific 
negotiations we are having in terms of how to effectuate that 
commitment, the details of that are being hammered out. And it 
is not an easy negotiation because what we are asking of 
Vietnam is meaningful. If it weren't meaningful, they would 
have agreed to it months ago, but they know that what we are 
asking them to do would be, in effect, revolutionary in that 
system.
    Mr. Lowenthal. That is right.
    Mr. Malinowski. It would be, and you know, you will see the 
details when it is agreed, and it is not yet agreed.
    But it will have to include, we have said this, a legal 
guarantee that workers in factories and enterprises around 
Vietnam will be able to form their own unions, elect their own 
leaders, set their own policies, decide on their own whether, 
and when, and how to go on strike, communicate with each other, 
factory to factory. And, again, all of this will have to be--it 
can't be a promise. It is going to have to actually get done in 
law.
    All of that said, I have got no illusions, and I agree with 
Congressman Sherman that if all of that is done, we are not 
going to be in a place where this is settled. Of course, it is 
going to remain unsettled precisely because it is meaningful. 
There will be forces on the other side that push back. What I 
asked myself is as somebody who is promoting this change, which 
by definition will take time in Vietnam, are we going to be 
better off? Are the Vietnamese workers going to be better off--
civil society--a year or two from now if this right is 
guaranteed in Vietnamese law or not?
    Absent this process, TPA now, if we get it, TPP, it will 
not be guaranteed because the political incentive to do this 
revolutionary thing, absent the benefit of joining TPP, is not 
great enough for the Vietnamese Communist Party. So will we be 
better off in that stage? Will they be empowered to demand even 
more rights? Will we be empowered to demand more of the 
Vietnamese?
    My answer to that question is yes, which is why what I am 
urging you to do. And I am actually not asking you to vote for 
TPP because there is no TPP. I am asking you to keep this 
process going and to keep the prospect of TPP alive by voting 
for the authority, which will then allow us to spend the next 
few months, not only negotiating the agreement with the labor 
chapters as strong as possible, but also trying to get more 
people out of prison, trying to get reforms to the criminal 
code and other things that are needed to take Vietnam two or 
three steps further down that road. And then we are going to 
have to keep on fighting, absolutely.
    Mr. Lowenthal. Thank you, and I yield back, Mr. Chair.
    I will submit the rest of my questions in writing.
    Mr. Salmon. Thank you very much. I am going to ask one more 
quick question and I will allow everybody else to ask another 
quick one. We probably don't have a lot of time, but how well 
is State coordinating with DOD on Thailand, which has 
historically played a major role in managing the U.S.-Thailand 
relationship? In March, the U.S. Pacific Command indefinitely 
postponed what was to have been the first planned meeting for 
next year's Cobra Gold exercises? Was this a signal to ruling 
junta? What do you think about using Cobra Gold to encourage 
the military government to move toward elections? And what 
options exist to hold multilateral exercises elsewhere in the 
region?
    Mr. Marciel. Thank you, Mr. Chairman. We actually have a 
very good coordination with DOD, with the Pentagon, as well as 
with the NFC. So our policy on Thailand is decided through an 
interagency process, including a meeting this week that we 
already had where we touched on this. So it is an interagency 
process.
    And on Cobra Gold, specifically, we decided, as you know, 
for this Cobra Gold earlier this year, we decided last year to 
hold it because of its importance to us. But also, frankly, 
regionally, it is a multilateral exercise. So we decided to 
hold it in a scaled-down version with an enhanced focus on 
humanitarian assistance, disaster relief.
    At this point, what we decided going forward is to go ahead 
with the preparation for 2016 Cobra Gold. For the same reasons, 
also would be scaled down in light of the political situation 
in Thailand.
    Mr. Salmon. Thank you.
    Mr. Sherman.
    Mr. Sherman. Yes. The news reports show refugees fleeing to 
Malaysia, Indonesia, and they say it is a combination of 
Bangladeshis and Rohingya. But do we have any view as to is it 
more one or more of the other that are on those ships? And, 
also, why would Bangladeshis be fleeing their homeland at this 
particular time?
    Mr. Marciel. Thank you, Congressman.
    I will say a couple of things first. I don't think we have 
exact numbers--nor the U.N.--have exact numbers yet. But 
overall----
    Mr. Sherman. I mean, is it 10 percent Bangladeshis or 80 
percent Bangladeshis?
    Mr. Marciel. I think somewhere in between. The best 
information we have is that it is a mixed, probably majority 
Rohingya from Burma but a significant minority Bangladeshi. 
Again, we don't have exact numbers, but that is our best sense.
    And, also, our best sense is that those leaving Bangladesh 
tend to be looking for better, more economic opportunities 
whereas those leaving Rakhine State in Burma, it is a 
combination of, you know, a bad economic situation, but also 
discrimination, persecution, lack of rights.
    Mr. Sherman. Why would Bangladeshis be leaving Bangladesh 
at this particular time and be willing to take these enormous 
risks?
    Mr. Malinowski. Yeah, I mean, the particular time has to do 
actually with the weather. There is something----
    Mr. Sherman. Well, this particular year.
    Mr. Malinowski. There has been a traditional outflow of 
Bangladeshis who are fleeing for poverty, who are seeking 
opportunity and willing to take some risks.
    I think one reason why it is difficult to answer this 
question is because there may be Rohingyas from Burma who, when 
asked where are you from, will say they are Bangladeshi because 
they fear they are going to be sent back somewhere, and they 
would rather be sent back to Bangladesh. It is very 
complicated.
    There are also, I think among the Rohingyas, there are 
people who have voluntarily fled because the situation in their 
country is so intolerable, but we have also seen reports 
including from Human Rights Watch--and maybe you will be able 
to ask them in the next panel--that some have actually been 
seized by traffickers, that, you know, these trafficking 
networks that are at the heart of this, colluding often with 
corrupt officials in various countries, will actually go and 
nab people because they can sell them down the line.
    Mr. Sherman. And they are nabbing people in Bangladesh?
    Mr. Malinowski. In Burma. I have seen testimonies that 
suggest that some of the--testimonies of people who have landed 
in Malaysia, Thailand, suggesting that that is what happened to 
them.
    Mr. Sherman. So we hear reports that they have to pay 
thousands of dollars to get on the ships, and they are saying, 
in other cases, they not only pay nothing, but they are 
literally captured. A significant number are coming from 
Bangladesh, where they don't face religious persecution. It is 
just bad economics in Bangladesh.
    Mr. Malinowski. Yes, so it is a complicated mix. But I 
think, you know, what it comes down to for us is, what do we do 
about it? And the initial, obviously, our initial instinct was 
we had people on the high seas who are at imminent risk of 
death. At that point, we are not distinguishing where they are 
from. Our focus was getting the Indonesians, the Malaysians, 
and the Thais to allow boats to land and to be proactive, to go 
out and do search and rescue, which we, I think, in a 
relatively short period of time, managed to convince many of 
them to do. We did our own search and rescue in the form of 
surveillance flights.
    Mr. Sherman. I think you have gone beyond my question, and 
I have gone beyond my time, but thank you very much.
    Mr. Salmon. Thank you.
    I think we are going to adjourn this panel and bring the 
next one up. Thank you very much, gentlemen. I appreciate it 
very much.
    Mr. Salmon. I thank the panel for coming today.
    We are very fortunate to be joined by Kelley Currie, a 
senior fellow with the Project 2049 Institute, where she has 
worked on democracy, human rights, and rule of law in the Asia 
Pacific for over 6 years.
    Murray Hiebert--did I pronounce that right, Murray?
    Mr. Hiebert. Yes.
    Mr. Salmon. He is a senior fellow and deputy director of 
the Sumitro Chair for Southeast Asian Studies, Center for 
Strategic and International Studies.
    Peter Manikas has served as senior associate and director 
of Asia programs at the National Democratic Institute for the 
past 20 years.
    And Dr. Sophie Richardson is Human Rights Watch's China 
director.
    And Ms. Currie, we will start with you. Let me just explain 
the situation. We are going to probably have votes in about 10 
to 15 minutes. I am going to try to get through all of your 
testimony. We probably won't get to questions today, which 
disappoints me, but maybe if we could have members submit 
questions to you in writing, that would be very, very helpful.
    And Ms. Currie.

  STATEMENT OF MS. KELLEY CURRIE, SENIOR FELLOW, PROJECT 2049 
                           INSTITUTE

    Ms. Currie. Thank you, Mr. Chairman, Mr. Ranking Member, 
and members of the committee for giving me the opportunity 
today to speak about the state of democracy in Asia, 
specifically with regard to the situation in Burma.
    There is no denying there have been changes in Burma over 
the past 5 years. When I started working on human rights and 
democracy in Burma 20 years ago as a young congressional 
staffer working on the Congressional Human Rights Caucus, I 
could not have imagined that I would be sitting here today, 
having spent time in Burma and meeting with the people I was 
trying to get out of jail at that time, people like Min Ko 
Naing and Aung San Suu Kyi and others.
    Likewise, when I was running the International Republican 
Institute's Burma program with shoestring funding, operating 
out of safe houses on the Thai-Burma border, I can't imagine--I 
couldn't have imagined that IRI and NDI and other organizations 
would be operating from offices in downtown Rangoon today with 
the permission of the government and working openly with 
political organizations to--in advance of an upcoming election. 
So while these relative economic and political changes 
certainly have taken place, it is tempting, after so many years 
of brutally repressive military rule, to use the negative 
standards of the bad old days to judge the current situation.
    But doing this would communicate to the Burmese that they 
don't deserve the same kind of genuine democracy, real economic 
opportunity, or real human rights that we take for granted. 
Instead, we must measure Burma's progress both against the 
democratic aspirations of the Burmese people, flagrantly denied 
since 1990, and against the objective standards of genuine 
democratic governance.
    Unfortunately, the same countries, including the United 
States, that spent more than two decades supporting those 
democratic aspirations and standards seem to have decided that 
the reforms to date are good enough, despite how far they fall 
short of what we would accept for ourselves.
    Let's be clear, they have fallen short. Just 1 month prior 
to the outbreak of violence in Rakhine State in May 2012, the 
Burmese nation and the world celebrated the sweeping victory of 
Aung San Suu Kyi and the NLD in by-elections.
    In the wake of this historic event, the United States 
lifted its sanctions on Burma. And President Obama made the 
first trip to Burma by a sitting President of the United 
States. Yet since that trip, reforms have stopped cold. The 
situation has steadily worsened for civil society, political 
activists, and those who refuse to accept the government's 
terms for their transition to discipline flourishing democracy. 
This is the big concern, I think, that many of us have. What is 
this transition going towards? It is not really the 
government's intention to have a transition to genuine 
democracy. They want to transition to an electoral 
authoritarian system with a thin veneer of democracy on top of 
it.
    As we look to the elections planned for this fall, there is 
no prospect that they can be genuinely free and fair. Because 
the constitutional and bureaucratic framework under which they 
are being held is so heavily tilted toward the military and the 
incumbent regime, even if the NDL ``wins,'' as Assistant 
Secretary Malinowski laid out, and captures a majority of the 
votes, they will not be able to form a government and take 
political control of the country and the government. Their 
political leader cannot be elected President. Regardless of the 
election results, the military will remain in control of 
Burma's political, bureaucratic, and economic powers. This is 
why the country's democratic forces have been so focused on 
reform of the 2008 constitution. But there has been no movement 
on that. And that is totally at the discretion of the military 
and the government.
    When Burma began liberalizing in 2010, many thoughtful 
Burmese democrats expressed concerns about becoming ``another 
Cambodia,'' a donor or China-dependent, electoral authoritarian 
backwater. Today, these same people are equally concerned about 
not emulating Thailand, the country next door that has the 
superficial trappings of economic development and democracy, 
but which is actually controlled by an elite with shallow 
commitments to liberal values. Among Burmese Democrats, the 
seemingly cyclical military interventions in Thailand's 
democracy point out the dangers of contemplating a long-term 
similar role for the Burmese military. When it announced the 
pivot to Asia, the Obama administration declared its intent to 
strengthen U.S. Ties with all the governments of the region.
    The 2010 reforms in Burma created new opportunities to 
fulfill that rhetoric. Unfortunately, the Obama administration 
has de-emphasized democratic values in its policy approach in 
the misguided belief that this will facilitate improved 
relations. They have replaced a policy of principled 
disassociation with Burma with one of unprincipled engagement. 
This pragmatism in the service of a transactional relationship 
may seem rational in the short term. But the situation in 
Thailand show that, ultimately, there is no shortcut. Thank 
you.
    [The prepared statement of Ms. Currie follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
                   ----------                              

    Mr. Salmon. Thank you.
    Mr. Hiebert.

  STATEMENT OF MR. MURRAY HIEBERT, DEPUTY DIRECTOR AND SENIOR 
 FELLOW, SUMITRO CHAIR FOR SOUTHEAST ASIA STUDIES, CENTER FOR 
              STRATEGIC AND INTERNATIONAL STUDIES

    Mr. Hiebert. Thank you, Mr. Chairman.
    I was asked to speak about Thailand. Obviously, Thai 
democracy took a big hit on May 22, 2014, when the military 
ousted Prime Minister Yingluck following 6 months of protests. 
Hence, the National Council for Peace and Order, as the new 
government was called, moved quickly to prohibit political 
activities, censor the media, try dissidents in military 
courts, et cetera.
    Analysts basically think Thailand, especially the Thai 
elite, view themselves as going through a historical political 
transition that has existential stakes for Thailand. The 
military, analysts say, has assumed military control to ensure 
that it manages the royal succession when that takes place down 
the road. And these people also say that it is unlikely we are 
going to see real elections in Thailand until there is this 
succession.
    So when the military took over, it replaced civilian courts 
with military courts. It ordered newspapers to stop writing 
articles critical of the military. Satellite, television, and 
radio stations were shut. And access to many Web sites were 
blocked, as were meetings of more than 500 people--excuse, more 
than 5 people. On May 22, when they commemorated the first 
anniversary of the coup, officials arrested over 40 activists 
in various parts of the country for staging peaceful rallies to 
mark the military takeover.
    The military has come out with a draft constitution, which 
is now being circulated. I think most Democrats would say that 
it falls far short of what observers would consider minimally 
credible for democracy. And the military also keeps pushing 
back the date for new elections. Elections that had been 
scheduled for early 2016 are now said to be delayed at least 
until August or September.
    The other thing which was alluded to previously was the 
whole issue of human trafficking, human smuggling. I know it is 
not directly a democracy issue, but it is critically a human 
rights issue. The Thai military, after being put on the Tier 
III list last year, has started an investigation. They have 
arrested some people. They found bodies in makeshift camps 
along the Thai-Malaysia border. And this is obviously a 
situation that has been going on for years and an issue that 
will need to be addressed.
    Thailand is a country that has had very long relations with 
the United States, dating back to 1833. It is a key country in 
Southeast Asia, ASEAN, it is very central. The U.S. And 
Thailand cooperate in so many areas. Thailand has the biggest 
U.S. Embassy in the region. The U.S. does much of its regional 
activity from Thailand.
    So you have to try and think of a country that had 
democracy quite a bit of the time over the last four decades, 
you know, whether we can criticize the democracy, but it is at 
least an attempt, and then it has been interrupted by military 
coups. So trying to think about how the U.S. can respond and 
try to engage the Thais when they are in the midst of what they 
see as a very difficult transition that goes far beyond 
democracy and a military coup is to try assign a high-level 
Thai envoy. This would be somebody who would represent the 
administration but would travel frequently to Thailand to 
consult with them, to keep them, not to say we concur and agree 
with everything but that we are trying to deepen our 
understanding of your concerns and listen to the perspectives 
of Thailand's key players.
    The other thing we absolutely have to keep doing is 
continue pressing the military to rescind the orders 
restricting freedom of expression and freedom of assembly and 
those kind of issues, and also revoke the Penal Code article 
112 on lese majeste.
    And then the other one, which I already alluded to, is 
really the military has to put an end to human trafficking, 
establish an independent investigation, release the results, 
and bring justice to those perpetrating these abuses.
    And then in trying to find ways to support the democratic 
principles of governance, one of the ideas that we have talked 
about in my office is whether it would be useful to try to put 
together a private eminent persons group of senior former 
officials, maybe private sector people, very prominent people 
who could talk to the Thais. They would talk to prominent Thais 
not in the military right now, about 5 years down the road, 
what they would like to see U.S.-Thailand relations look like. 
Thank you.
    [The prepared statement of Mr. Hiebert follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                  ----------                              

    Mr. Salmon. Thank you.
    Mr. Manikas and Dr. Richardson, I am going to have a very 
truncated time frame. We just got buzzed for votes.
    Is there a way that you could maybe abbreviate your 
comments? Because I just have one question that I would really 
like to get out there. Would that be all right?
    Mr. Manikas. Sure.
    Mr. Salmon. And I am so sorry for the way things operate 
sometimes around here. But I know you are used to it.

    STATEMENT OF MR. PETER M. MANIKAS, SENIOR ASSOCIATE AND 
 REGIONAL DIRECTOR FOR ASIA PROGRAMS, THE NATIONAL DEMOCRATIC 
                           INSTITUTE

    Mr. Manikas. Thank you. I have submitted written testimony, 
so if I could just make a few brief points about Hong Kong, 
Thailand, and Burma in the context of the region as a whole.
    Mr. Salmon. That would be great.
    Mr. Manikas. Mr. Chairman, I don't think that any single 
trend, neither retreat nor revival, defines the direction of 
democracy in the region.
    We have recently seen a military coup followed by a ban on 
political activity in Thailand. In Hong Kong, the government in 
Beijing has remained intransigent, insisting on its version of 
universal suffrage. In Burma, progress toward political reform 
has stalled as critical elections approach, although 
constitutional reform remains a possibility.
    However, more positive and I believe a longer term trend 
has seen citizens demand more open and competitive political 
systems in countries such as Cambodia, Malaysia, and Singapore. 
Recent elections in those countries saw entrenched ruling 
parties face significant challenges by a reinvigorated 
opposition.
    In Indonesia, there was a historic change in leadership 
which could deepen the nation's regional influence as a model 
for democracy. In demographic terms, urbanization, the 
existence of a youth bulge, and the rapid growth of social 
media will also likely increase demands for greater democratic 
accountability.
    One important challenge that has emerged is the 
restrictions being placed on activities of civil society 
organizations. For example, in Cambodia, the new election law 
limits the ability of election-monitoring groups to criticize 
the government during the election period. And a proposed NGO 
law is under consideration that would deny registration to 
organizations that would harm national unity, culture, and the 
traditions of Cambodia.
    In mainland China, a proposed law would limit the ability 
of local groups to receive foreign funding and would place the 
regulation of foreign NGOs under the ministry of state 
security.
    In Burma, many NGOs are unsure of their legal status and 
uncertain of what activities they can engage in without 
violating the law.
    In Hong Kong and Malaysia, civil society groups are being 
intimidated and accused of promoting American values.
    Some international groups which work in the areas of human 
rights and democracy too have been accused of exporting an 
American model of democracy. I am not sure why it is referred 
to as an American model. The people of Indonesia, Japan, 
Mongolia, the Philippines, South Korea, and Taiwan have 
embraced democratic governance and demonstrated that democracy 
is fully compatible with Asian values.
    Finally, Mr. Chairman, I think that the response of the 
international community to the changes that are occurring 
should be a persistent engagement to support democratic reforms 
and to assist those who are advancing the democratic process, 
in the high hopes that the international community will 
continue its efforts to support reformers inside and outside of 
government in pursuing the goals and aspirations of people 
throughout the region who are seeking to improve their lives by 
improving their governments. Thank you.
    [The prepared statement of Mr. Manikas follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
                  ----------                              

    Mr. Salmon. Thank you.
    Dr. Richardson.

 STATEMENT OF SOPHIE RICHARDSON, PH.D., CHINA DIRECTOR, HUMAN 
                          RIGHTS WATCH

    Ms. Richardson. Sure. I will take Peter's 2 minutes. I am 
going to be really quick here.
    Chairman Salmon, I think it is manifestly the case that the 
arc of history is not bending toward justice in mainland China. 
And I think the jury is really out on the direction that Hong 
Kong is taking.
    The core issue here is not complex: The right to vote and 
the right to run are equally important. And you don't get to 
claim democratic reform by giving one while undercutting the 
other.
    We can have a much longer discussion about this. But since 
I was asked to comment specifically on how the U.S. is doing, I 
think it is fair to say that while the U.S. has diagnosed the 
correct problems, I think it has been deeply reticent about 
being very forceful about those. If you compared, for example, 
the forcefulness and the frequency of American rhetoric, 
democracy in Hong Kong to democracy to other parts of the 
world, you would see a pretty significant gap.
    And I think that if the U.S. is willing to say, as the 
previous panel did, that chief executives in Hong Kong lack 
legitimacy because they haven't been popularly elected, I 
really look forward to people making that point about Xi 
Jinping. I think there are many steps that the U.S. could take: 
Speaking of more frequently; being seen to be meeting with a 
full diversity of actors in Hong Kong; I think having codels 
visits helps enormously.
    And I certainly hope that you will take from this hearing 
your concerns and formulate them to the administration in 
advance of the S&ED and Xi Jinping visit. Thanks.
    [The prepared statement of Ms. Richardson follows:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                   ----------                              

    Mr. Salmon. You really hit on the issue that I wanted to 
ask the question on anyway. And anybody is free to give me 
their thoughts on it. But some observers think that the U.S. 
Government should do a lot more to promote democracy in Hong 
Kong.
    Every time we do, China says: Hands off, it is a domestic 
issue.
    What are some of the things that you think that the U.S. 
Government should do? And what kind of concrete steps? I mean, 
it is great that we make statements in hearings like this and 
when we have private meetings with them. But the needle isn't 
really moving. And can we step things up?
    Ms. Richardson. I think the reality with China is that you 
could, the U.S. Could, in theory, throw everything and the 
kitchen sink at it and the Chinese Communist Party might not be 
moved. I do think that is a reality.
    That said, I think there is a great deal more that the U.S. 
can do. And if you think comparatively, you know, when you look 
at, for example, the initial photographs of Occupy, all I can 
think of, for example, was Ambassador Victoria Nuland at Maidan 
Square handing out bread to demonstrators. Or you read a 
jointly penned op-ed by the President and the President of 
Tunisia talking about democratic reform. And you wonder how 
many people the administration even tried to imagine a world in 
which such an activity could be pursued with a peaceful 
government critic from China or from Hong Kong. I think people 
have gotten badly ground down by Chinese Government reticence. 
But there are plenty of examples of how the U.S. promotes 
democracy and defends rights in somewhat less hostile 
environments that could very effectively be pursued.
    Mr. Salmon. This is something I would like to even put a 
little more flesh on the bones with you. Maybe we could 
privately meet and talk about some of your ideas. I really 
don't want to give short shrift. This is a wonderful panel. And 
I am so sorry that we couldn't just spend hours and hours 
because I know I would probably learn a lot. Thank you so much 
for being here today.
    Ms. Currie. On the last question, can I add something to 
Sophie's comment?
    Mr. Salmon. Yes.
    Ms. Currie. Thank you. The fact that we don't really engage 
China on democratization in the mainland, actually, it is a 
huge problem not just for our engagement with China but it 
undercuts our efforts to promote democracy elsewhere in the 
region.
    The other countries in the region aren't clueless about the 
fact that we are not raising this with China. We are putting 
pressure on them to do something that we won't even talk to the 
Chinese about. And I think that in order for us to really 
address this in Hong Kong, it has also got to be part of a 
package of addressing it with China writ large. And we don't do 
that anymore. It used to be a standard feature of U.S. 
diplomacy to talk about political reform in China. And it has 
completely dropped off the agenda.
    Mr. Salmon. You are a great straight man because that is 
exactly what our hearing next week is going to address. Thank 
you very, very much. We are thinking alike there.
    This meeting is adjourned.
    [Whereupon, at 4:26 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

        <F-dash>\<because><F-dash><Register>s<ellipse><ellipse>
          <Hoarfrost>a<script-l><acctof><pound><Rx> t<pound> 
               <n-iden-3>a<Rx><box><script-l> <lrg-box>\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

[Note: Responses were not received to the above questions prior to 
printing.]

        <F-dash>\<because><F-dash><Register>s<ellipse><ellipse>
           <Hoarfrost>a<script-l><acctof><pound><Rx><o-times>
                 <Hoarfrost>t<careof>v<box><natural>s\
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


        <F-dash>\<because><F-dash><Register>s<ellipse><ellipse>
          <Hoarfrost>a<script-l><acctof><pound><Rx> t<pound> 
           <n-iden-3>a<Rx><box><script-l> <lrg-box><lrg-box>\
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



[Note: Following are responses received to the above questions prior to 
printing.]

        <F-dash>\<because><F-dash><Register>s<ellipse><ellipse>
           <Hoarfrost>a<script-l><acctof><pound><Rx><o-times>
                 <H-dash><careof><box>b<box><natural>t\
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


        <F-dash>\<because><F-dash><Register>s<ellipse><ellipse>
           <Hoarfrost>a<script-l><acctof><pound><Rx><o-times>
                         \a<Rx><careof><loz>as\
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


             <F-dash>\\<pound>w<box><Rx>t<star>a<script-l> 
                     <Hoarfrost><F-dash><Register>\
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


<F-dash>\<Copyright><pound><Rx><Rx><pound><script-l><script-l><variable>
                     <Hoarfrost><F-dash><Register>\
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>
</pre></body></html>
